No. A-

In the

Supreme Court ofthe United States
a

GARYVICTOR DUBIN,
Petitioner,

v
SUPREME COURT OF THE STATE OF HAWAII,
Respondent.
o

DECI,ARATION OF GARYVICTOR DUBIN
a

GanvVrcton DrrsrN
Counsel of&ecord
DusrN LRw Opplcns
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96818
Telephone: (so8) 537-2300
Facsimile: (808) 523'77 33
Cellular: (aos) 392-919r
E'Mail: gdubin@dubinlaw.net

Petitioner
Member, Supreme Court Bat

DECLARATION OF GARY VICTOR DUBIN

I, GARY VICTOR DUBIN, HEREBY DECLARE:
1.

I am the Petitioner in these proceedings, a Member of this Court's Bar since

t976, the author of the attached Application for Emergency Stay, and

I

make the

within statements based on my own personal firsthand knowledge that I affirm

are

true.
2. The factual statements contained in the accompanying Application are true
of my own personal firsthand knowledge, and the exhibits included in Appendix One

and in Appendix Two

in support of this Application are true and correct

as described

therein and a part of the Record below.

I

declare under penalty of perjury under the laws of the United States of

America that the foregoing is true and correct. Executed at Honolulu, Hawaii, on
October 24,2020.

/s/ Gary Victor Dubin
GARY VICTOR DUBIN

